HHS/OIG-Audit--"Audit of Administrative Costs Claimed Under Parts A & B of the Health Insurance for the Aged and Disabled Program - Associated Insurance Companies, Inc., Indianapolis, Indiana (A-05-94-00080)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Parts A & B
of the Health Insurance for the Aged and Disabled Program - Associated Insurance
Companies, Inc., Indianapolis, Indiana," (A-05-94-00080)
July 19, 1997
Complete Text of Report is available in PDF format
(589 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out unallowable costs of about $4 million claimed
by Associated Insurance Companies, Inc. for Fiscal Years 1990 through 1993.
The unallowable costs consisted of, and we recommended financial adjustments
for: $2.4 million for credits due the Medicare program; $0.5 million for executive
salary increases which exceeded the average increases for comparable positions,
as measured by the Federal Bureau of Labor Statistics; $0.3 million for unfunded
pension costs; $0.2 million for professional consultant services unrelated to
Medicare; $0.2 million for indirect costs that were for non-Medicare related
activities; and $0.4 million for various items which were unsupported, not in
accordance with Federal regulations, or did not benefit the Medicare program.